                                                      NATIONAL SCIENCE FOUNDATIOlv
                                                        WASHINGTON, D.C. 20550




                   Office of
               Inspector General



               MEMORANDUM
                           DATE:              March 31, 19

- .... ... - .. .-.
                  - . -.
                           FROM
                            .
                                  :
                           -. -- - -   . ..
                                                                          igations Section
                                                                              ---       .    -   .-   -   ~   ------

                   SUBJECT:                   Closeout ~emorandum
                                TO:           Case No. I93020009
              On February 7, 1993, we received an copy of a letter that was
              anonymously sent to the Chairman, Subcommittee on Investigations,
              Post Office and Civil Service Committee. The letter alleged that
              a candidate for position of Director of Polar Programs,
              had received portions of the Clinton Administration-
              paper regarding NSF1s Polar program while other candidates had not
              seen these papers. The letter requested that the release of this
              information to only one candidate be investigated by the
              Subcommittee on Investigations.
              On February 19, 1993, the Inspector General and the Deputy Counsel
              to the Inspector General met with an investigator from the
              Subcommittee on Investigations.      On February 23, 1993, the
              investigator communicated that the Subcommittee would look into the
              allegations. Because of the Subcommittee's decision, and because
              OIG investigative resources are limited, it was decided that the
              Investigations Section would not investigate this matter and we
              would wait for the results of the Subcommitteels review.
                                                                        NSF Director, announced the
                                                                        as teh new director of the
              Office of
              On September 20, 1993, I called the Subcommittee's Investigator to
              receive an update of their review.         I was told that the
              Subcommittee has had to pursue more pressing matters and did not
              see an investigation of the allegation in the future.
              Because Mr.                     m
                                 was not selected for the position, and because
              available OIG investigative resources are focused on other matters,
              I am now closing this file without investigation.
